.1

;

i

APPENDIX

A

s

!
k
\l

USCA4 Appeal: iy-4b98

Doc: 4b

Hied: 08/14/2020

Fg: 1 ot 5

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-4698

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

TREYTON LEE THOMAS, a/k/a Tracy Lee Thomas, a/k/a Trayton Thomas, a/k/a
T. L. Thomas, a/k/a Lee Thomas, a/k/a Erick Stratton,
Defendant - Appellant.

No. 19-4699

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

TREYTON LEE THOMAS, a/k/a Tracy Lee Thomas, a/k/a Trayton Thomas, a/k/a
T. L. Thomas, a/k/a Lee Thomas, a/k/a Erick Stratton,
Defendant - Appellant.

Appeals from the United States District Court for the Eastern District of North Carolina, at
Raleigh. James C. Dever, III, District Judge. (5:18-cr-00087-D-l; 5:16-cr-00298-D-l)

Submitted: July 31, 2020

Decided: August 14, 2020

USCA4 Appeal: 19-4696

Doc: 46

Filed: U6/14/2U2U

Pg: 2 ot 5

Before MOTZ and RICHARDSON, Circuit Judges, and SHEDD, Senior Circuit Judge.

Affirmed in part and dismissed in part by unpublished per curiam opinion.

Joseph B. Gilbert, TARLTON POLK PLLC, Raleigh, North Carolina, for Appellant.
Robert J. Higdon, Jr., United States Attorney, Jennifer P. May-Parker, Susan B. Menzer,
Assistant United States Attorneys, OFFICE OF THE UNITED STATES ATTORNEY,
Raleigh, North Carolina, for Appellee.

Unpublished opinions are not binding precedent in this circuit.

2

USUA4 Appeal: 19-4898

Doc: 4b

Filed: U8/14/2U2U

Pg: 8 of 5

PER CURIAM:
In these consolidated appeals, Treyton Lee Thomas appeals his convictions for
income tax evasion, in violation of 26 U.S.C. § 7201, and wire fraud, in violation of IB
U.S.C. § 1343. Thomas asserts that the Government breached the plea agreement by
advocating for an obstruction of justice Sentencing Guidelines enhancement and by
asserting that he was ineligible for a Guidelines reduction for acceptance of responsibility.
Thomas also asserts that his within-Guidelines sentence is procedurally and substantively
unreasonable. We affirm in part and dismiss in part.
“Plea agreements are grounded in contract law, and as with any contract, each party
is entitled to receive the benefit of his bargain.” United States v. Edged, 914 F.3d 281,287
(4th Cir. 2019) (internal quotation marks omitted). We will “enforce a plea agreement’s
plain language in its ordinary sense,” and any ambiguities in the agreement are construed
against the Government as the drafter. United States v. Under Seal, 902 F.3d 432,437-18
(4th Cir. 2018) (internal quotation marks omitted). Because Thomas did not challenge the
Government’s purported breach of the plea agreement in the district court, we review for
plain error. Edged, 914 F.3d at 286. “Under that standard, [Thomas] must show that the
[Government plainly breached its plea agreement with him and that the breach both
affected his substantial rights and called into question the fairness, integrity, or public
reputation ofjudicial proceedings.” Id. at 286-87.
We conclude that the Government did not breach the plea agreement.

The

Government did not stipulate in the plea agreement that a Guidelines enhancement for
obstruction of justice was unwarranted. Thus, the Government was under no obligation
3

USCA4 Appeal: 19-4698

Doc: 46

Filed: 08/14/2U2U

pg: 4 of 5

not to advocate for the obstruction enhancement. We further conclude that the Government
was free to assert that a downward adjustment for acceptance of responsibility was
unwarranted after Thomas failed to meet his obligations under the plea agreement. We
affirm this portion of the appeal.
In the plea agreement, Thomas waived his right to appeal the convictions and
whatever sentence was imposed on any ground. “A criminal defendant may waive the right
to appeal if that waiver is knowing and voluntary.” United States v. Tate, 845 F.3d 571,
574 n.l (4th Cir. 2017); United States v. Copeland, 707 F.3d 522, 528 (4th Cir. 2013). To
determine whether the waiver is knowing and voluntary, this Court looks to the sufficiency
of the plea colloquy and whether the district court questioned the defendant about the
appeal waiver, but ultimately the determination turns on “the totality of the circumstances.”
Copeland, 707 F.3d at 528 (internal quotation marks omitted). In evaluating the totality of
the circumstances, we consider “the particular facts and circumstances surrounding [the]
case, including the background, experience, and conduct of the accused.” United States v.
Blick, 408 F.3d 162, 169 (4th Cir. 2005) (internal quotation marks omitted). We “will
enforce the waiver if it is valid and the issue appealed is within the scope of the waiver.”
Copeland, 707 F.3d at 528 (internal quotation marks omitted).

“In the absence of

extraordinary circumstances, a properly conducted Rule 11 colloquy establishes the
validity of the waiver.” United States v. Adams, 814 F.3d 178, 182 (4th Cir. 2016).
We conclude that Thomas knowingly and voluntarily waived his right to appeal
whatever sentence was imposed. Thomas’ assertions that his Guidelines sentence was
improperly increased due to the obstruction ofjustice enhancement and calculated without
4

USUA4 Appeal: 19-4698

Doc: 46

Hied: 08/14/2020

Pg: 5 ot 5

the agreed-upon reduction for acceptance of responsibility are issues within the scope of
the valid appeal waiver. We further conclude that Thomas’ assertion that his withinGuidelines sentence is substantively unreasonable is also within the scope of the appeal
waiver. Accordingly, we will enforce the appeal waiver and dismiss this portion of the
appeal.
We affirm in part and dismiss in part. We dispense with oral argument because the
facts and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED IN PART;
DISMISSED IN PART

5

